INDEX TO APPENDICES
Appendix A Decision of the appellate division
Appendix B Decision of State Trial Court
Appendix C Decision of State Supreme Court Denying Review

18

I

SUPERIOR COURT OF THE STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF ALAMEDA

Date: 12/15/2020

21179783

Dept. 1B
Xiomara Galeano, Deputy Clerk
NR, Reporter

Hon. Noel Wise, Presiding Judge
Hon. James Cramer
Hon. Evelio Grillo

VAIDYANATHAN
Plaintiff/Appellant

Counsel appearing: NA
for Plaintiff

KING

Counsel appearing: NA
for Defendant

vs.
Defendant/Respondent
NATURE OF PROCEEDINGS:

RULING RE:
Ruling on Appeal

Appellate No. 3324
Trial Court No. RG18918677

Appellant Vaidyanathan’s appeal is dismissed, without prejudice. An order sustaining a demurrer
without leave to amend is not an appealable order. Instead, an appeal must be taken from the final
judgment. Here the record reflects no entry of judgment or a signed minute order as to dismissal.
(Code Civ. Proc. §§ 904.2, 472c.)

Copies of this minute order mailed this date: 12/16/2020

Ravi Vaidyanathan
In Pro Per
P.O. Box 193445
San Francisco, CA 94119

Christopher S. Hill
Attorney at Law
50 East South Temple, Suite 400
Salt Lake City, CA84111

APPELLANT’S ATTORNEY

RESPONDENT’S ATTORNEY

B CrM
Ravi Vaidyanathan
P.O. Box 193445
San Francisco, CA 94119-3445

Hill, Christopher S
50 E. South Temple
Suite 400
Salt Lake City, CA 84111

Superior Court of California, County of Alameda
Hayward Hall of Justice
Vaidyanathan

No. RG18918677
PlaintifiTPetitioner(s)

vs..

Order
Demurrer to Complaint
Sustained

King
Defendant/Respondent/ s)
(Abbreviated Title)

The Demurrer to Complaint was set for hearing on 10/30/2019 at 02:30 PM in Department 518 before
the Honorable Dennis Hayashi. The Tentative Ruling was published and has not been contested.
IT IS HEREBY ORDERED THAT:
The tentative ruling is affirmed as follows: The Demurrer of Defendant Bishop Michael D. King to the
First Amended Complaint of Plaintiff Ravi Vaidyanathan, pursuant to CCP § 430.10(e), is
SUSTAINED WITHOUT LEAVE TO AMEND.
Plaintiff is a member of the Church of Jesus Christ of Latter Day Saints. Plaintiff attends Sunday
service at the church or temple located at 4780 Lincoln Avenue, in Oakland. Plaintiff alleges that
Defendant is the Bishop of the Church's 9th Ward, which includes Oakland. Plaintiff filed his original
Complaint on August 29, 2018. Plaintiff filed his First Amended Complaint on March 28, 2019. The
Court had granted Defendant's Motion for Judgment on the Pleadings on March 27, 2019. Plaintiff
asserts a negligence claim and a premises liability claim against Defendant.
Plaintiff alleges in the First Amended Complaint that he sustained personal injury and emotional distress
as a result of taking the Holy Sacrament during Sunday service. The Court is required to accept
Plaintiffs allegations as true at the pleading stage even if they seem implausible on their face. See
Aubry v. Tri-City Hosp. Dist. (1992) 2 Cal.4th 962, 966-967 (court is not required to accept plaintiffs
contentions, deductions or conclusions of law or fact). The Court therefore accepts Plaintiffs allegation
that he consumed tainted bread during church service as true.
Defendant's Demurrer to Plaintiffs First Cause of Action for Negligence is SUSTAINED WITHOUT
LEAVE TO AMEND. After carefully reviewing the allegations in the First Amended Complaint, the
Court agrees with Defendant's contention that Plaintiff did not allege any facts to support an inference
that Bishop King was involved in the preparation of the Holy Sacrament that caused him to develop a
rash and dysentery'. Plaintiff clearly alleges that Church elders are responsible for handling the bread
that is allegedly infested with some form of fungus. Plaintiffs transmission of an email message to
Bishop King in January 2018 regarding his suspicions is not sufficient to support a conclusion that he is
liable. Plaintiff cannot support his claim by referring to biblical scripture and internal policies of the
Mormon Church. Finally, the Court rejects Defendant's argument that the Entanglement Doctrine
applies to bar Plaintiffs claims. If Bishop King were involved in the preparation of the allegedly
contaminated Holy Sacrament, the Court could not dismiss Plaintiffs claims in order to avoid becoming
entangled in "religious affairs." Nally v. Grace Community Church (1988) 47 Cal.3d 278, 292-294, the
California Supreme Court's focus w'as on the issue of causation after a church member committed
suicide after receiving counseling and professional referral from Pastor Thomson of the Church.

Serbian Eastern Orthodox Diocese v. Milivojevich (1976) 426 U.S. 696, 713-714, also cited by
Defendant, is readily distinguishable because that case involved a proposed separation of dioceses and
was not decided at the pleading stage.
Defendant's Demurrer to Plaintiffs Second Cause of Action for Premises Liability is also SUSTAINED
WITHOUT LEAVE TO AMEND. Plaintiff has not alleged sufficient facts to support an inference that
Defendant Bishop King is the owner or tenant of the building at 4780 Lincoln Avenue. Plaintiff also
has not alleged facts to show that he sustained damages as a result of a condition of the property.
Plaintiffs theory of liability is that Church elders are not taking reasonable precautions to make sure
that the bread used to prepare the Holy Sacrament is fit for human consumption. Plaintiff alleges that
he was able to see that the bread was infested with some form of fungus. The Court is required to
accept this allegation as true. Plaintiff further alleges that those responsible for preparing the
Sacrament were not washing their hands properly before handling the bread.
The Court declines to give Plaintiff another opportunity to amend his allegations. Plaintiff has not
shown that he can overcome Defendant's pleading challenges if given a chance to file a Second
Amended Complaint. See Goodman v. Kennedy (1976) 18 Cal.3d 335, 349 (burden is on the plaintiff
to show how he can successfully plead a cause of action).
Plaintiffs First Amended Complaint is HEREBY DISMISSED WITH PREJUDICE. The Case
Management Conference scheduled to be held on December 9, 2019 is VACATED.
Counsel for Defendant shall promptly file and serve the Notice of Entry of Order.
facsimile

Dated: 10/30/2019

/] \

-f—>

Judge Dennis Hayashi

Superior Court of California, County of Alameda
Hayward Hall of Justice

Case Number: RG18918677
Order After Hearing Re: of 10/30/2019

DECLARATION OF SERVICE BY MAIL
I certify that I am not a party to this cause and that a true and correct copy of the
foregoing document was mailed first class, postage prepaid, in a sealed envelope
addressed as shown on the foregoing document or on the attached, and that the
mailing of the foregoing and execution of this certificate occurred at
24405 Amador Street, Hayward, California.
Executed on 10/31/2019.
Chad Finke Executive Officer / Clerk of the Superior Court
By
Deputy Clerk

CL Supreme (Eonvt nf (Ealtfnrma:
JORGE E. NAVARRETE

EARL WARREN BUILDING

CLERK AND EXECUTIVE OFFICER
OF THE SUPREME COURT

350 McAllister

street

SAN FRANCISCO, CA 94102
(415) S65-7000

December 23, 2020

Ravi S. Vaidyanathan,
P.O. Box 193445
San Francisco, California 94119
Re:

RG18918677 VAIDYANATHAN v. KING

Dear Mr. Vaidyanathan:
We hereby return unfiled your Petition for Review which we received on December
22, 2020. A party may file a petition in the Supreme Court for review of any decision of
the Court of Appeal, including any interlocutory order, except the denial of a transfer of
a case within the appellate jurisdiction of the superior court. (See California Rules of
Court, rule 8.500 (a)(1)).

Very truly yours,
JORGE E. NAVARRETE
Clerk and
Executive Officer of the Supreme Court

Wl

By: Simone voltz, Supervising Deputy Clerk

cc: Rec.

1

RAVI S. VAIDYANATHAN

M
I
San Ffsnoisco County Supofior Court

P.O. BOX 193445

DEC 1 1

SAN FRANCISCO
CA

4

94119-3445

CLERK OF THECOURT

BY:

Deputy Clerk

Phone: (415) 583-3659

BOWMAN LIU

Email: ravilatterdavsaint@icloud.com
Plaintiff, In Propria Persona

SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF SAN FRANCISCO

RAVI S. VAIDYANATHAN,

)
)

Plaintiff,

)
)

Vs.

SAN FRANCISCO HUMAN SERVICES AGENCY,

)
)
)

CITY AND COUNTY OF SAN FRANCISCO

8PF*20~f17???

CASE NO:

)

PETITION FOR WRIT OF
ADMINISTRATIVE
MANDAMUS (CCCPs
§1085. (a) & §1094.5)

)

Defendant

)
)
)

!

